January 25, 2007

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

KATHY AINSWORTH
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report – Fiscal Year 2006 Financial Installation Audit – Automated
         Postal Centers (Report Number FF-AR-07-073)

This report presents the results of our audits of 14 judgmentally selected automated
postal centers (APC) during fiscal year (FY) 2006 (Project Number 06BD004FF000).1
We conducted the audits at the request of U.S. Postal Service Headquarters and to
support the audit of the U.S. Postal Service’s financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records and, generally, the internal controls we examined
were in place and effective. However, there were internal control and compliance
issues related to stamp security and accountability procedures.2 In addition, we
identified issues related to current Postal Service guidance that does not require training
of employees after initial APC deployment and does not require designation of APC
back-up employees.

We made recommendations to district management addressing the findings at each
installation. District management’s comments were responsive to our findings and
recommendations, and the actions taken or planned should correct the issues identified
at these installations. In addition, we discussed with Postal Service management the
issues related to training and designation of back-up employees. In response,
management plans to include specific guidance on these issues in an APC handbook
they will issue by January 31, 2007. Management chose not to respond to our draft
report since there were no recommendations.




1
  We performed two of the 14 audits during the first week of FY 2007, but are including this in our FY 2006 summary
of APCs.
2
  This report discusses only the findings identified at five or more APCs. We present the detailed findings for all
14 APC audits in Appendix B.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Linda Libician-
Welch, Director, Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: William P. Galligan
    H. Glen Walker
    Frederick Hintenach, III
    Vincent H. DeVito, Jr.
    Janet L. Webster
    Steven R. Phelps
Fiscal Year 2006 Financial Installation Audit –              FF-AR-07-073
 Automated Postal Centers



                                      TABLE OF CONTENTS

 Executive Summary                                                     i

 Part I

 Introduction                                                         1

     Background                                                       1
     Objectives, Scope, and Methodology                               2
     Prior Audit Coverage                                             2

 Part II

 Audit Results                                                        3

     Automated Postal Centers                                         3
          Stamp Security Procedures                                   3
          Stamp Accountability Procedures                             4
          Audit Comment                                               5

     Requirements For Training Needed Strengthening                   5
     Requirements For Designating Back-Up Employees Needed            6
      Strengthening

     Management’s Comments                                            6

 Appendix A. Automated Postal Centers Audited                         7
 Appendix B. Fiscal Year 2006 Reported Audit Findings                 8
 Appendix C. Accountability Examination Summary                      10
Fiscal Year 2006 Financial Installation Audit –                                                          FF-AR-07-073
 Automated Postal Centers


                                        EXECUTIVE SUMMARY
    Introduction                    This report summarizes the results of our audits of
                                    14 judgmentally selected automated postal centers (APC)
                                    for fiscal year (FY) 2006. The Postal Reorganization Act of
                                    1970 requires annual audits of the U.S. Postal Service’s
                                    financial statements. We conduct these audits in support of
                                    the Postal Service’s financial statements. The audits at
                                    each of the APCs were unannounced.

                                    The overall objectives of our audits were to determine
                                    whether financial transactions of field operations were
                                    reasonably and fairly presented in the accounting records
                                    and whether internal controls were in place and effective
                                    at 14 judgmentally selected APCs audited.

    Results in Brief                Based on the items we reviewed, financial transactions
                                    were reasonably and fairly presented in the accounting
                                    records and, generally, the internal controls we examined
                                    were in place and effective. However, there were internal
                                    control and compliance issues related to stamp security and
                                    accountability procedures.3 In addition, we identified issues
                                    related to current Postal Service guidance that does not
                                    require training of employees after initial APC deployment
                                    and does not require designating APC back-up employees.
                                    We present the detailed findings for all 14 APC audits in
                                    Appendix B, and the results of our accountability
                                    examinations at each APC in Appendix C.

                                    We made recommendations to district management
                                    addressing the findings at each installation. District
                                    management’s comments were responsive to our findings
                                    and recommendations and the actions taken or planned
                                    should correct the issues identified at these installations.

                                    In addition, we discussed with Postal Service Headquarters
                                    issues related to current Postal Service guidance that does
                                    not require training of employees after initial APC
                                    deployment and does not require designating back-up
                                    employees. In response, management plans to issue an




3
 This report discusses only the findings identified at five or more APCs. We present the detailed findings for all
14 APC audits in Appendix B.




                                                           i
Fiscal Year 2006 Financial Installation Audit –                                  FF-AR-07-073
 Automated Postal Centers



                                  APC handbook by January 31, 2007, that will address these
                                  issues. Management chose not to respond to our draft
                                  report since there were no recommendations.




                                                  ii
Fiscal Year 2006 Financial Installation Audit –                                               FF-AR-07-073
 Automated Postal Centers


                                             INTRODUCTION
    Background                    Beginning with fiscal year (FY) 2001, the U.S. Postal
                                  Service Office of Inspector General (OIG) assumed
                                  responsibility from the Postal Inspection Service for
                                  conducting financial field audits at revenue-generating units,
                                  which include post offices, contract postal units, self-service
                                  and automated postal centers (APC); business mail entry
                                  units; and stamp distribution offices. We conduct these
                                  audits in support of the overall audit of the Postal Service’s
                                  financial statements.

                                  The Postal Service implemented the APC program in
                                  April 2004 to give customers convenient access to postal
                                  products and services and reduce their waiting time by
                                  diverting simple transactions that do not require assistance
                                  from a retail associate. APCs are customer-friendly kiosks
                                  where customers can ship packages, buy stamps, and
                                  verify ZIP Codes™. The centers allow retail associates to
                                  focus on more complex transactions and, therefore, are
                                  expected to generate more revenue for the Postal Service.

                                  The following publications establish procedures for APC unit
                                  operations and oversight:

                                   •   Handbook F-1, Post Office Accounting Procedures,
                                       November 1996 (updated with Postal Bulletin revisions
                                       through June 9, 2005).4

                                   •   Postmaster/Field Guide, Version 5.0, July 2006.

                                   •   Automated Postal Center Credit Exam Procedures,
                                       July 28, 2005.

                                   •   Automated Postal Center (APC) Key Procedures,
                                       Version 2.0, Appendix 5.




4
 Management suspended updates to Handbook F-1 on August 18, 2005, and plans to issue a revised handbook by
January 31, 2007.




                                                      1
Fiscal Year 2006 Financial Installation Audit –                                          FF-AR-07-073
 Automated Postal Centers




    Objectives, Scope,                The overall objectives of our audit were to determine
    and Methodology                   whether financial transactions of field operations were
                                      reasonably and fairly represented in the accounting records,
                                      and whether internal controls were in place and effective.

                                      To accomplish our objectives, we performed fieldwork at 14
                                      judgmentally selected APCs5 during FY 2006 and the first
                                      month of FY 2007. (See Appendix A for a list of units and
                                      OIG report numbers.) The audits performed at these units
                                      were unannounced. We conducted counts of the APC
                                      storage repository and kiosk inventories and reviewed all
                                      transactions generated for one reporting period related to
                                      financial accounting and reporting. We also inventoried
                                      keys and reviewed internal controls over key accountability.

                                      We traced recorded financial transactions to and from
                                      supporting documentation and assessed the reliability of
                                      computerized data by verifying the computer records to
                                      source documents. We also evaluated whether the internal
                                      control structure over financial reporting and safeguarding of
                                      assets was implemented and functioning as designed.

                                      We conducted this audit from November 2005 through
                                      January 2007 in accordance with generally accepted
                                      government auditing standards and included tests of
                                      internal controls that we considered necessary under the
                                      circumstances. We discussed the results of our audit with
                                      management officials and included their comments where
                                      appropriate. We issued individual reports to management
                                      at each unit.

    Prior Audit Coverage              OIG issued a report titled Fiscal Year 2005 Financial
                                      Installation Audit – Self-Service and Automated Postal
                                      Centers (Report Number FF-AR-06-127, dated April 7,
                                      2006). The report disclosed internal control and compliance
                                      issues related to cash and stamp accountability, security,
                                      refunds, spoiled variable rate labels, and rejected stamp
                                      stock. We did not make any recommendations.




5
    These 14 units reported $1.9 million in revenue in FY 2005.




                                                              2
Fiscal Year 2006 Financial Installation Audit –                                                           FF-AR-07-073
 Automated Postal Centers


                                                AUDIT RESULTS
    Automated Postal                We conducted audits at 14 judgmentally selected APCs.
    Centers                         Based on the items we reviewed, financial transactions
                                    were reasonably and fairly presented in the accounting
                                    records, and, generally, the internal controls we examined
                                    were in place and effective. However, there were internal
                                    control and compliance issues related to stamp security and
                                    accountability procedures.6 Most employees stated they
                                    were either unaware of or did not fully understand the
                                    requirements or were inadequately or not trained on APC
                                    accountability procedures. When employees do not follow
                                    security and accountability procedures, there is an
                                    increased risk of financial loss to the Postal Service. We
                                    noted the results of our accountability examinations in
                                    Appendix C.

                                    We also identified issues related to current Postal Service
                                    guidance that does not require training of employees after
                                    the initial APC deployment and does not require designating
                                    APC back-up employees. When employees are not trained,
                                    they are not able to adhere to required procedures. In
                                    addition, when management does not designate back-up
                                    employees, the unit could experience APC downtime and
                                    create customer dissatisfaction.

    Stamp Security                  The APC supervisors and/or service employees did not
    Procedures                      always follow prescribed policies and procedures related to
                                    stamp security. Specifically:

                                         •    At 10 APCs, supervisors did not maintain Postal
                                              Service (PS) Form 3977, Duplicate Key Inventory,
                                              envelopes to store the service employee and master
                                              keys.7 As a result, employees at four APCs did not
                                              realize they were missing at least one service and/or
                                              master key.

                                         •    At nine APCs, supervisors or service employees did
                                              not check out and return keys daily and/or maintain a
                                              key log on PS Form 1627, General Purpose Ruled
                                              Form.8

6
  This report discusses only the findings identified at five or more APCs. We present the detailed findings for all
14 APC audits in Appendix B.
7
  APC Key Procedures, Version 2.0, Appendix, 5, page 1, item 4, U.S. Postal Service, July 23, 2004.
8
  APC Key Procedures, pages 1 and 2.




                                                             3
Fiscal Year 2006 Financial Installation Audit –                                                     FF-AR-07-073
 Automated Postal Centers



                                       •   At five APCs, supervisors and service employees
                                           conducted or attempted to conduct the credit
                                           examinations in the post office lobby rather than in a
                                           secure location.9

                                       •   At five APCs, supervisors did not secure APC stamp
                                           stock separate from other accountabilities. For
                                           example, four APCs stored their stamp stock with the
                                           unit reserve stock. Consequently, this improperly
                                           allowed employees other than the APC service
                                           employee access to the stock.10

    Stamp Accountability           The APC supervisors and/or service employees did not
    Procedures                     always follow established accountability policies and
                                   procedures governing stamp stock. Specifically:

                                       •   At eight APCs, supervisors and service employees
                                           either used an incorrect accountability form to
                                           document their credit examination results or did not
                                           use a form at all.11

                                       •   At eight APCs, supervisors did not complete or
                                           properly complete PS Form 3369, Consigned Credit
                                           Receipt, to accept responsibility, not liability, for the
                                           value of the APC inventory.12

                                       •   At six APCs, supervisors did not conduct credit
                                           examinations at the required frequency.13 For
                                           example, employees at two APCs had only
                                           performed one examination since the Postal Service
                                           installed the APCs during calendar year 2004.




9
  Automated Postal Center Credit Exam Procedures, Preparation for Count, bullet 7, July 28, 2005.
10
   Automated Postal Center Credit Exam Procedures, Security.
11
   Automated Postal Center Credit Exam Procedures, Preparation for Count.
12
   Automated Postal Center Credit Exam Procedures.
13
   Automated Postal Center Credit Exam Procedures, Frequency, bullets 1 and 2.




                                                          4
Fiscal Year 2006 Financial Installation Audit –                                                     FF-AR-07-073
 Automated Postal Centers



                                       •   At six APCs, supervisors and/or service employees
                                           did not keep PS Form 3533, Application and Voucher
                                           for Refund of Postage, Fees and Services, and other
                                           APC documents separate from other unit
                                           documentation.14 Instead, the employees
                                           commingled the forms with the PS Form 1412, Daily
                                           Financial Report, or other Postal Service reference
                                           materials.

 Audit Comment                     We made recommendations to district management
                                   addressing the findings at each installation. District
                                   management’s comments were responsive to our findings
                                   and recommendations and the actions taken or planned
                                   should correct the issues identified at these installations.
                                   We did not identify any corrective actions required by U.S.
                                   Postal Service Headquarters regarding these issues.
                                   Consequently, we are not making additional
                                   recommendations related to the issues in this report.

 Requirements For                  Postal Service guidance requires training for employees at
 Training Needed                   the time of the initial APC deployment but does not require
 Strengthening                     subsequent training.15 As a result, when a new employee
                                   joins a unit and is assigned APC responsibilities, they are
                                   not aware of the required procedures.

                                   We included this issue in our individual installation reports
                                   and suggested management consider establishing a policy
                                   requiring district personnel to provide APC training to
                                   employees prior to their being assigned APC
                                   responsibilities. Management agreed and plans to include a
                                   requirement for training employees in a new APC
                                   handbook, which they plan to issue by January 31, 2007.16
                                   The handbook will include a chapter on how to select and
                                   train an APC employee. Management’s planned actions will
                                   address this issue; therefore, we are not making a
                                   recommendation.




14
   Refunds and Exchanges, page 2, December 15, 2004.
15
   Automated Postal Center, Train-the-Trainer Course, Facilitator Guide, Module 9, Retail Operations Course 41201-99,
March 2004 (revised August 30).
16
   APC Handbook (Draft), Selecting and Training APC Personnel, Chapter 3, Section 3, page 1.




                                                          5
Fiscal Year 2006 Financial Installation Audit –                                                   FF-AR-07-073
 Automated Postal Centers




 Requirements For                   Postal Service policy does not require units to have back-up
 Designating Back-Up                employees responsible for APC activities. Therefore, an
 Employees Needed                   APC may not have employees available who are
 Strengthening                      knowledgeable about APCs, as was the case at one unit we
                                    audited.

                                    We included this issue in the individual installation reports
                                    and suggested management consider revising the APC
                                    guidance to require units to designate back-up employees.
                                    Management agreed and plans to include a requirement in
                                    the APC handbook that a manager or postmaster have a
                                    minimum of four service employees trained for each APC.
                                    In addition, management plans to require all service
                                    employees and site supervisors to complete a training
                                    course before servicing an APC.17 Management’s planned
                                    actions will address these issues; therefore, we are not
                                    making a recommendation.

 Management’s                       Management chose not to respond to our draft report since
 Comments                           there were no recommendations.




17
     APC Handbook (Draft), Selecting and Training APC Personnel, Chapter 3, Section 32, page 1.




                                                           6
Fiscal Year 2006 Financial Installation Audit –                                                       FF-AR-07-073
 Automated Postal Centers


                                                   APPENDIX A

                          AUTOMATED POSTAL CENTERS AUDITED
This table presents the 14 APCs judgmentally selected for audit.

                                                                             FY 2005                OIG Report
                   Unit Name                         Location               Revenue18                Number
 1.      XXXXXXXXX Post Office                 XXXXXXXXXX VA                      $114,069          FF-AR-07-017
 2.      XXXXXXX Post Office                   XXXXXXXX VA                        $112,557          FF-AR-06-181
 3.      XXXXXXXXXXX Post Office               XXXXXXX CA                         $209,787          FF-AR-06-021
 4.      XXXXXXXXXXX Post Office               XXXXXXX TX                         $102,252          FF-AR-07-028
 5.      XXXXXXXXXXX Post Office               XXXXXXXX CA                        $282,831          FF-AR-06-017
 6.      XXXXXXXX Station                      XXXXXXXXXX CA                      $212,168          FF-AR-07-012
 7.      XXXXXXXXXXXXXX Station                XXXXXXX TX                         $222,517          FF-AR-07-025
 8.      XXXXXXXX Post Office                  XXXXXXXX RI                         $59,329          FF-AR-06-218
 9.      XXXXXXXX Station                      XXXXXXX TX                         $106,787          FF-AR-06-029
10.      XXXXXXXXXXX Post Office               XXXXXXX CA                          $34,850          FF-AR-06-074
11.      XXXXXXXXXX Post Office                XXXXXXXXXXX RI                     $183,639          FF-AR-07-006
12.      XXXXXXXXXXX Post Office               XXXXXXXXXX CA                      $113,374          FF-AR-06-057
13.      XXXXXXXXXXX Post Office               XXXXXXXXXX CA                      $161,232          FF-AR-07-015
14.      XXXXXXXXXXX Post Office               XXXXXXXXXXX MA                      $55,512          FF-AR-06-256




18
     FY 2005 revenue totaling $1,970,904 was reported through the Standard Accounting for Retail.




                                                            7
Fiscal Year 2006 Financial Installation Audit –                                                                                                                                                                                                                       FF-AR-07-073
 Automated Postal Centers


                                                                                                                            APPENDIX B

                                        FISCAL YEAR 2006 REPORTED AUDIT FINDINGS

In FY 2006, the OIG issued 14 APC audit reports. The table below provides a year-to-date summary of the results.
The findings are listed for each site in the order of the most frequent findings.




                                                                                                                                                                                                                                                                                                                                                                                  XXXXXXXXXXX, Massachusetts
                                                                                                                                                                                 Office, XXXXXXXXXX California




                                                                                                                                                                                                                                                                       Office, XXXXXXXXX, California




                                                                                                                                                                                                                                                                                                                                                                                                                                          Number of APCs With Findings
                                                                                                                                                                                                                 XXXXXXXX Station, XXXXXX,
                                                                                                                                                      XXXXXXXXXXX Rhode Island
                                              XXXXXXXXXXXX Post Office,




                                                                                                                                                                                                                                                                                                                                                                                  XXXXXXXXXXXX Post Office,
                                                                                                                           XXXXXXXXXXX Post Office,




                                                                                                                                                                                                                                                                                                                              XXXXXXXXXXX Post Office,




                                                                                                                                                                                                                                                                                                                                                                                                               XXXXXXXXXXX Post Office,
                                                                                                                                                      XXXXXXXXXX Post Office,
                                                                          XXXXXXXXXXXXXXXXXX




                                                                                                                                                                                                                                                                                                                                                         XXXXXXXX, Rhode Island
                                                                                                                                                                                 XXXXXXXXXXXXXX Post




                                                                                                                                                                                                                                                                       XXXXXXXXXXXXXX Post
                                                                                                                                                                                                                                             XXXXXXXXX Post Office,




                                                                                                                                                                                                                                                                                                                                                         XXXXXXXXX Post Office,
                                                                          Station, XXXXXXX Texas


                                                                                                   XXXXXXXXXX California




                                                                                                                                                                                                                                             XXXXXXXXXX Virginia




                                                                                                                                                                                                                                                                                                       XXXXXXX Post Office,
                                              XXXXXXXX California




                                                                                                                           XXXXXXX California
                                                                                                   XXXXXXXX Station,




                                                                                                                                                                                                                                                                                                                                                                                                               XXXXXX, California
                                                                                                                                                                                                                                                                                                       XXXXXXX, Virginia


                                                                                                                                                                                                                                                                                                                              XXXXXX, Texas
                                                                                                                                                                                                                 Texas
            Description of Findings
    Management and/or employees did not:
    Maintain PS Form 3977, Duplicate Key
                                                                                                         X                                                                               X                              X                          X                           X                            X                       X                          X                         X                           X                            10
    Inventory, envelopes for APC keys
    Check out and return APC keys daily;
                                                                                X                        X                                                  X                                                                                      X                           X                            X                                                  X                         X                           X                                            9
    maintain a key log
    Use proper forms to record credit
                                                                                X                        X                                                  X                            X                              X                          X                                                        X                                                                                                        X                                            8
    examinations
    Complete or properly complete PS
                                                     X                          X                        X                       X                                                       X                              X                                                                                   X                       X                                                                                                                             8
    Form 3369, Consigned Credit Receipt
    Conduct credit examinations at proper
                                                                                X                                                X                          X                                                                                                                                                                       X                          X                                                     X                                            6
    frequency
    Keep PS Forms 3533, Application and
    Voucher for Refund of Postage, Fees
                                                     X                          X                        X                                                                                                                                                                                                                          X                                                    X                           X                                            6
    and Services, in a folder separate from
    the daily documents
    Conduct credit exams in secure location                                     X                        X                                                                                                              X                                                                                                                                      X                                                     X                                            5
    Secure APC stock separate from other
                                                                                X                                                                                                                                                                  X                                                        X                       X                                                                                X                                            5
    stock
    Cancel or attach spoiled variable rate
                                                                                X                                                X                                                                                      X                                                                                                           X                                                                                                                             4
    forms to PS Form 3533
    Record transfer of redeemed stamp
                                                                                                                                                                                                                        X                                                                                                           X                                                                                X                                            3
    booklets to storage repository in APC




                                                                                                                                                                          8
Fiscal Year 2006 Financial Installation Audit –                                                                                                                                                                                                                       FF-AR-07-073
 Automated Postal Centers




                                                                                                                                                                                                                                                                                                                                                                                  XXXXXXXXXXX, Massachusetts
                                                                                                                                                                                 Office, XXXXXXXXX, California




                                                                                                                                                                                                                                                                       Office, XXXXXXXXX, California




                                                                                                                                                                                                                                                                                                                                                                                                                                          Number of APCs With Findings
                                                                                                                                                                                                                 XXXXXXXX Station, XXXXXX,
                                              XXXXXXXXXXXX Post Office,




                                                                                                                                                                                                                                                                                                                                                                                  XXXXXXXXXXXX Post Office,
                                                                                                                                                      XXXXXXXXXX, Rhode Island
                                                                                                                           XXXXXXXXXXX Post Office,




                                                                                                                                                                                                                                                                                                                              XXXXXXXXXXX Post Office,




                                                                                                                                                                                                                                                                                                                                                                                                               XXXXXXXXXXX Post Office,
                                                                          XXXXXXXXXXXXXXXXXXX




                                                                                                                                                      XXXXXXXXXX Post Office,




                                                                                                                                                                                                                                                                                                                                                         XXXXXXXX, Rhode Island
                                                                                                                                                                                 XXXXXXXXXXXXXX Post




                                                                                                                                                                                                                                                                       XXXXXXXXXXXXXX Post
                                                                                                                                                                                                                                             XXXXXXXXX Post Office,
                                                                          Station, XXXXXX, Texas


                                                                                                   XXXXXXXXX, California




                                                                                                                                                                                                                                                                                                                                                         XXXXXXXX Post Office,
                                                                                                                                                                                                                                                                                                       XXXXXXX Post Office,
                                                                                                                                                                                                                                             XXXXXXXXX, Virginia
                                              XXXXXXX, California




                                                                                                   XXXXXXXX Station,



                                                                                                                           XXXXXX, California




                                                                                                                                                                                                                                                                                                                                                                                                               XXXXXX, California
                                                                                                                                                                                                                                                                                                       XXXXXXX, Virginia


                                                                                                                                                                                                                                                                                                                              XXXXXX, Texas
                                                                                                                                                                                                                 Texas
             Description of Findings
    Management and/or employees did not:
    Document the transfer of stock from the
                                                                                X                                                                                                                                                                                                                                                                              X                         X                                                                        3
    stamp distribution office
    Print PS Form 1412, Daily Financial
                                                                                X                                                                                                                                                                                                                                                    X                                                                                                                            2
    Report, on a daily basis
    Complete the entire PS Form 3533                                                                                                                                                                                                                                                                                                                           X                                                     X                                            2
    Follow prescribed refund procedures              X                                                                                                                                                                                                                                                                               X                                                                                                                            2
    Conduct one count exam; instead the
    exam was conducted by a self-service
                                                                                                                                                                                                                                                                               X                                                                                                                                                                                  1
    postal center technician and retail
    associate
    List variable rate labels on PS Form
    3294, Cash and Stamp Stock Count                                                                                                                                                                                                                                                                                                X                                                                                                                             1
    and Summary
    Secure APC keys when not in use                                                                                                                                                                                                                                                                                                                                                                                  X                                            1
    Properly complete PS Form 3977                                                                                                                                                                                                                                                                                                                                                                                   X                                            1
    Secure APC stamp booklets                                                                                                                                                                                           X                                                                                                                                                                                                                                         1
    Return rejected stamp stock to the
                                                                                                                                                                                                                                                                                                                                                                                                                     X                                            1
    Stamp Distribution Office
    Process refunds using retail window
                                                                                                                                                                                                                        X                                                                                                                                                                                                                                         1
    stock
    Post credit examination results to the
                                                                                                                                                                                                                                                                                                                                                                                                                     X                                            1
    APC machine
    Terminate individual computer logon
                                                                                                                                                                                         X                                                                                                                                                                                                                                                                        1
    identifications of inactive employees
    Conduct a separate APC credit
                                                                                                                                                                                                                                                                                                                                                                                                                     X                                            1
    examination
    Void stamp booklets or rejected
                                                                                                         X                                                                                                                                                                                                                                                                                                                                                        1
    variable rate postage labels




                                                                                                                                                                          9
Fiscal Year 2006 Financial Installation Audit –                                     FF-AR-07-073
 Automated Postal Centers



                                              APPENDIX C

                   ACCOUNTABILITY EXAMINATION SUMMARY
        This table presents the results of accountability examinations performed during the APC
        audits, rounded to the nearest dollar. Shortages and overages presented are the total
        value of all shortages and overages identified during the examination of each
        accountability.

                                                  Total Value of
                                                  Accountability
                                                    Per Clerk      Total Value of All
                                                    Balance
                    Unit Name                        Report      Shortages Overages
          XXXXXXXXX Post Office                         $40,874         $0          $7
          XXXXXXX Post Office                            16,993          0       2,564
          XXXXXXXXXXX Post Office                        35,837         54           0
          XXXXXXXXXXX Post Office                        13,822          7           0
          XXXXXXXXXX Post Office                         10,210          0           7
          XXXXXXXX Station                                8,564          0           0
          XXXXXXXXXXXXXX Station                         34,244        180           0
          XXXXXXXX Post Office                            9,670         26           0
          XXXXXXXX Station                                7,246         33           0
          XXXXXXXXXXX Post Office                        14,406         47           0
          XXXXXXXXXX Post Office                          3,356          0           7
          XXXXXXXXXXX Post Office                         7,586          0          20
          XXXXXXXX XXX Post Office                        1,923          0           0
          XXXXXXXXXXX Post Office                         3,349          0           0
                  Total                                $208,080       $347      $2,605




                                                      10
